1

1a

2a

567 S.W.3d 462
Court of Appeals of Texas, Houston (14th Dist.).

17-00495-CV, 2018 WL 3151231 (Tex. App.—Houston
[14th Dist.] June 28, 2018, no pet.) (mem. op.) (“Nunu
III”).1 In this appeal—Nunu IV—Paul E. Nunu
challenges the trial court’s order finding him to be a
vexatious litigant, ordering him to obtain a permission
from the local administrative judge before filing new
litigation against his siblings Nancy Nunu Risk and
Charles Nunu, and requiring him to post security of
$15,000 to maintain his most recent litigation.
We conclude that Texas Civil Practice and
Remedies Code section 11.101(c) authorizes an
interlocutory appeal of the part of the trial court’s order
finding Paul to be a vexatious litigant and requiring him
to obtain a prefiling order before instituting new
litigation against his siblings. Because the record
supports the trial court’s ruling, we affirm that part of
the judgment. We dismiss the remainder of the appeal
for want of jurisdiction.

Paul E. NUNU, Appellant
v.
Nancy Nunu RISK and Charles L. Nunu, Appellees

Opinion filed January 15, 2019
On Appeal from the Probate Court No. 1, Harris
County, Texas, Trial Court Cause No. 416781

C
ur
ry

W. Cameron McCulloch, Houston, TX, for Appellant.
Paul E. Nunu, Pasadena, TX, pro se.
Howard M. Reiner, Houston, TX, for Appellees.

&

Attorneys and Law Firms

Panel consists of Justices Christopher, Jewell, and
Hassan.
OPINION
Tracy Christopher, Justice

Before us for the fourth time is the continuing dispute
between siblings concerning the probate of their
mother’s estate. See In re Estate of Nunu, 542 S.W.3d
67 (Tex. App.—Houston [14th Dist.] 2017, pet. denied)
(“Nunu I”); In re Nunu, No. 14-17-00106-CV, 2017 WL
1181364 (Tex. App.—Houston [14th Dist.] Mar. 30,
2017, orig. proceeding [mand. denied] ) (per curiam)
(mem. op.) (“Nunu II”); In re Estate of Nunu, No. 14Printed with FinePrint - purchase at www.fineprint.com

Ta
yl
or

NO. 14-18-00109-CV

I. Background
Nancy and Charles moved to have Paul declared
a vexatious litigant because he has attempted to
relitigate matters that were finally determined in
earlier litigation against Nancy and over which he now
has no reasonable probability of prevailing. We
therefore briefly recount the history of the parties'
dispute.
A. Nunu I
In Nunu I, Paul alleged in his “Second Amended
Application to Enforce Forfeiture *464 Provision of
Will and for Removal of Nancy Nunu Risk,
Independent Executrix” (“the Second Application”)

2

4a

that his sister Nancy, in her capacity as independent
executrix of their mother’s estate, had committed
breach of fiduciary duty, negligence per se, gross
negligence, gross mismanagement, gross misconduct,
and fraud. Nunu I, 542 S.W.3d at 72. He asked the trial
court to remove Nancy as independent executrix of
their mother’s estate, compel distribution of the estate,
award him exemplary damages, declare Nancy’s
inheritance forfeit, declare Nancy’s attorneys' fees
forfeit, and enforce an alleged partition agreement. See
id. at 72–73.
On the third day of the jury trial, Paul nonsuited
with prejudice his claims to remove Nancy or to enforce
the forfeiture in his mother’s will, reserving only his
claims to compel distribution of the estate and to
contest and seek forfeiture of Nancy’s attorneys' fees.
Id. at 72. The trial court failed to find a continued need
for an administration and denied Paul’s claims for
forfeiture of Nancy’s attorneys' fees but did not
determine the amount of Nancy’s attorneys' fees that
were required to be paid from the estate. We remanded
the case to the trial court with instructions (1) to
determine the amount of Nancy’s reasonable and
necessary expenses and attorneys' fees incurred in that
action to be paid from the estate’s assets; (2) to
authorize Nancy to make such payments from the
estate’s assets and to order her to reimburse the estate
to the extent that her expenses and legal fees incurred
in that action and already paid with estate funds
exceeds the amount of reasonable and necessary
expenses and fees found by the trial court; (3) to compel
distribution of the estate in accordance with the will of
Rose Farha Nunu; and (4) if any portion of the estate is
incapable of distribution without prior partition or sale,
to order partition and distribution, or sale, in the

manner provided for the partition and distribution of
property incapable of division in estates administered
under the county court’s direction.2 Id. at 89–90. We
further pointed out that the trial court is not required
to compel distribution of the estate’s assets in
accordance with the terms of any partition or
settlement agreement that had not been signed by all of
the estate’s beneficiaries. See id. at 87. The Supreme
Court of Texas denied Paul’s petition for review.

C
ur
ry

&

Ta
yl
or

3a

Printed with FinePrint - purchase at www.fineprint.com

B. Nunu II

While Nunu I was pending, Nancy applied to the
trial court to resign as independent executrix on the
condition that she or a qualified third party be
appointed as dependent administrator of the estate.
Paul urged the trial court to accept Nancy’s resignation
but objected to the appointment of a dependent
administrator. He additionally argued that Nancy was
required to file a verified accounting but had failed to
do so. The trial court accepted Nancy’s conditional
resignation and appointed third party Howard M.
Reiner as dependent administrator.
Paul filed a second round of objections, repeating
the demand for a verified accounting and adding a
request to be appointed as successor independent
executor. The trial court overruled Paul’s objections
and denied his request.
Paul then petitioned this court for a writ of
mandamus concerning the overruling of his first round
of objections. See Nunu II, 2017 WL 1181364, at *1. We
denied mandamus relief, as did the Supreme Court of
Texas.

3

5a

6a

C
ur
ry

&

While Nunu I and Nunu II were pending, Paul
filed a third round of objections to Reiner’s
appointment and to Nancy’s failure to file a verified
accounting that Paul continued to argue was statutorily
required. When the trial court overruled Paul’s third
round of objections, Paul filed Nunu III, in which he
attempted to appeal the overruling of all three rounds
of objections to the trial court’s (1) acceptance of
Nancy’s resignation, (2) appointment of Reiner as
dependent administrator, (3) refusal to order a verified
accounting, and (d) denial of Paul’s request to be
appointed successor independent executor.
We dismissed the appeal for want of jurisdiction.
Nunu III, 2018 WL 3151231, at *1. We explained that
Paul’s attempt to appeal the overruling of his first
round of objections was untimely, and thus, that phase
of the proceeding ended with the trial court’s order of
January 12, 2017, accepting Nancy’s resignation,
appointing Reiner, and failing to order a verified
accounting. See id. at *6. We further explained that the
rulings on Paul’s second and third round of requests
and objections were denials of reconsideration as to
matters raised in his first round of objections, and that
to the extent the second and third round of objections
raised new matters, the rulings on them were
interlocutory. See id. at *7.
D. Nunu IV
On October 27, 2017—a week before we issued
our opinion in Nunu I and a few weeks after Paul filed
his reply brief in Nunu III—Paul filed his “Application
to Enforce Forfeiture Provision of Will, and for Fraud
Printed with FinePrint - purchase at www.fineprint.com

and Breach of Contract Damages” (“the Third
Application”). In this pleading, Paul sought to enforce
the forfeiture provision of his mother’s will against both
Nancy and his brother Charles. Alleging that Paul was
attempting to relitigate matters that had been finally
determined and in which he had no reasonable
probability of prevailing, Nancy and Charles moved to
have Paul declared a vexatious litigant. In their motion,
Nancy and Charles asked the trial court to order Paul
to (1) post security to maintain the action, and (2) obtain
permission from the local administrative judge before
filing new pro se litigation. See Tex. Civ. Prac. & Rem.
Code Ann. § 11.051 (West 2017) (trial court may order
vexatious litigant to post security); id. at 11.101(a) (trial
court may order vexatious litigant to obtain permission
before filing new pro se litigation). The trial court
granted the motion, and Paul posted the $15,000 surety
bond ordered by the court. He now appeals the trial
court’s order.

Ta
yl
or

C. Nunu III

II. Issu
Issues
es Presented
In three issues, Paul argues that the trial court
abused its discretion in finding him to be a vexatious
litigant, because (1) no evidence was offered or
admitted to support the finding, (2) the statutory
prerequisites for such a finding were not satisfied, and
(3) the trial court did not correctly apply the law of the
case as stated in Nunu 1. We review the trial court’s
vexatious-litigant ruling for abuse of discretion. See
Jones v. Markel, No. 14-14-00216-CV, 2015 WL
3878261, at *2 (Tex. App.—Houston [14th Dist.] June
23, 2015, pet. denied) (mem. op.).

4

7a

8a

An appellate court must determine de novo
whether it has jurisdiction over an appeal, even if it
must do so sua sponte. See In re Estate of Gaines, 262
S.W.3d 50, 62 n.13 (Tex. App.—Houston [14th Dist.]
2008, no pet.); *466 In re C.M., No. 14-03-01098-CV,
2006 WL 461378, at *2 (Tex. App.—Houston [14th
Dist.] Feb. 28, 2006, no pet.) (mem. op.). Usually, only
final judgments are appealable. See Alexander Dubose
Jefferson & Townsend LLP v. Chevron Phillips Chem.
Co., 540 S.W.3d 577, 581 (Tex. 2018) (per curiam). The
trial court’s order granting Nancy and Charles’s
vexatious-litigant motion and requiring him to post
security does not dismiss Paul’s claims, and the record
does not show that the trial court subsequently
rendered a final judgment in this matter. The order
therefore is interlocutory, and a party may not appeal
an interlocutory order unless authorized by statute. See
Bally Total Fitness Corp. v. Jackson, 53 S.W.3d 352,
352 (Tex. 2001).
It is well-established that no statute authorizes
an interlocutory appeal from an order declaring a
person to be a vexatious litigant and requiring the
person to post security. See, e.g., Tex. Civ. Prac. &
Rem. Code § 11.051; McCann v. Spencer Plantation
Invs., Ltd., No. 14-18-00613-CV, 2018 WL 5261052, at *1
(Tex. App.—Houston [14th Dist.] Oct. 23, 2018, pet.
filed) (per curiam) (mem. op.); Doughty v. BLTREJV3
Dall. LLC, No. 05-14-00387-CV, 2014 WL 3513378, at *1
(Tex. App.—Dallas July 15, 2014, no pet.) (mem. op.);
Lagaite v. Boland, No. 07-12-0422-CV, 2012 WL
6213259, at *1 (Tex. App.—Amarillo Dec. 13, 2012, no
pet.) (mem. op.); Kirk v. Lucas, No. 2-04-295-CV, 2004
WL 2569419 (Tex. App.—Fort Worth No. 12, 2004, no

pet.) (per curiam) (mem. op.); Crain v. Cecil, No. 10-1200078-CV, 2012 WL 763146, at *1 (Tex. App.—Waco
Mar. 7, 2012, no pet.) (mem. op.). This is true even in the
probate context, in which there can be more than one
final judgment. See, e.g., Aguilar v. Morales, No. 04-1600382-CV, 2017 WL 4158090, at *5 (Tex. App.—San
Antonio Sept. 20, 2017, no pet.) (mem. op.). We
accordingly dismiss this part of Paul’s appeal.
But Nancy and Charles also moved to have Paul
declared a vexatious litigant under another provision.
Under Texas Civil Practice and Remedies Code section
11.101(a), a trial court may, after notice and hearing,
“enter an order prohibiting a person from filing, pro se,
a new litigation in a court to which the order applies
under this section without permission of the
appropriate local administrative judge.” Tex. Civ. Prac.
& Rem. Code § 11.101(a). An order under section
11.101(a) is known as a “prefiling order.” By including
in their motion a request for a prefiling order, Nancy
and Charles sought relief under section 11.101(a).
Unlike an order granted pursuant to section
11.051, there is statutory authorization for an appeal of
a prefiling order under section 11.101(a). Section
11.101(c) states, “A litigant may appeal from a prefiling
order entered under Subsection (a) designating the
person a vexatious litigant.”
Although section 11.101(c) does not state
whether it authorizes an interlocutory appeal or an
appeal only from a final order, courts that have
considered the issue have held that the statute
authorizes an interlocutory appeal. See, e.g., Florence v.
Rollings, No. 02-17-00313-CV, 2018 WL 4140458, at *2–
3 (Tex. App.—Fort Worth Aug. 30, 2018, no pet.) (mem.
op.); Margetis v. Bayview Loan Servicing, LLC, 553
S.W.3d 643, 644 (Tex. App.—Waco 2018, no pet.); Jones

C
ur
ry

&

Ta
yl
or

III. Jurisdiction

Printed with FinePrint - purchase at www.fineprint.com

5

9a

10a

v. Carter, No. 09-16-00081-CV, 2016 WL 2941412, at *1
(Tex. App.—Beaumont May 19, 2016, no pet.) (mem.
op.); Restrepo v. Alliance Riggers & Constructors, Ltd.,
2015 WL 999950, at *1–2 (Tex. App.—El Paso Mar. 4,
2015, no pet.) (mem. op.); *467 Comeaux v. Hamilton,
No. 07-13-00170-CV, 2014 WL 1047271, *1 n.1 (Tex.
App.—Amarillo Mar. 17, 2014, no pet.) (mem. op.).3
We agree that this is the most logical
construction of the statute. This reading is supported
by section 11.103, which provides that a court clerk may
not file a litigation, original proceeding, appeal, or other
claim by a vexatious litigant acting pro se, but the court
clerk “may file an appeal from a prefiling order entered
under Section 11.101 designating a person a vexatious
litigant.” See Tex. Civ. Prac. & Rem. Code § 11.103(a),
(d). It makes sense that a person should be able to
immediately appeal a prefiling order that is itself
immediately effective and that may apply to any new
litigation on any subject, against any defendant, in any
court in the state.4 Further, and as the Florence court
pointed out, section 11.101 is not the only statute to
permit an interlocutory appeal without explicitly
stating as much. See Florence, 2018 WL 4140458, at *3
n.7. For example, section 171.098 of the Texas
Arbitration Act states that a party may appeal an order
denying an application to compel arbitration and that
“[t]he appeal shall be taken in the manner and to the
same extent as an appeal from an order or judgment in
a civil action,” but the statute is understood to
authorize an interlocutory appeal. See Tex. Civ. Prac. &
Rem. Code § 171.098(a)(1), (b); Chambers v. O'Quinn,
242 S.W.3d 30, 31 (Tex. 2007) (per curiam).
For all of these reasons, we conclude that we
have jurisdiction over the portion of the trial court’s

ruling that constitutes a prefiling order under Texas
Civil Practice and Remedies Code § 11.101(a).
IV. The V
Vexatious
exatiousexatious- Litigant Finding

Ta
yl
or

&

C
ur
ry

Printed with FinePrint - purchase at www.fineprint.com

Before a court may issue a prefiling order, it
must find that the plaintiff is a vexatious litigant.
Although there are several grounds on which a court
may make such a finding, Nancy and Charles relied on
Texas Civil Practice and Remedies Code § 11.054(2),
which provides as follows:
A court may find a plaintiff a vexatious litigant if
the defendant shows that there is not a
reasonable probability that the plaintiff will
prevail in the litigation against the defendant
and that ...
(2) after a litigation has been finally determined
against the plaintiff, the plaintiff repeatedly
relitigates or attempts to relitigate, pro se,
either:
(A) the validity of the determination against the
same defendant as to whom the litigation was
finally determined; or
(B) the cause of action, claim, controversy, or any
of the issues of fact or law determined or
concluded by the final determination against the
same defendant as to whom the litigation was
finally determined....

Tex. Civ. Prac. & Rem. Code § 11.054(2).
In his first two issues, Paul contends that these
statutory requirements were not satisfied because no

6

12a

evidence *468 supporting a vexatious-litigant finding
was offered or admitted. We disagree.
Nancy and Charles argued that Paul gave up a
number of claims by dismissing the claims with
prejudice in Nunu I, and they attached to their motion
an excerpt of the trial transcript from that proceeding.
The excerpt includes Paul’s nonsuit with prejudice of all
claims that had been brought, or that could have been
brought, in that proceeding, except that he reserved his
rights (a) to assert claims for his inheritance, (b) to
apply for an order compelling distribution, and (c) to
contest the fees charged by Nancy’s attorneys. See
Nunu I, 542 S.W.3d at 73–74. Nancy and Charles also
attached a copy of the 2016 final judgment, which states
that “all claims and causes of action contained in [the
Second Application] are dismissed with prejudice.”
The Second Application is part of the trial
court’s record, and as Paul requested, the trial court
took judicial notice of all pleadings and orders filed in
the case. In his Second Application, Paul pleaded that,
in violation of Texas Estates Code section 405.002(b),
Nancy conspired with her attorneys to obtain an illegal
release as a condition of distributing assets. He alleged
that Nancy required Paul to execute releases of his
claims against her and Charles, which Paul refused to
do. Paul also complained that Nancy refused to
distribute the estate’s assets in accordance with an
unsigned Partition Agreement Paul drafted, and Paul
sought to enforce the unsigned agreement. Paul further
alleged that Nancy “wrongfully retained survivorship
monies she knew belonged to the estate, or cashed in
multiple insurance policies payable to the estate and
transferred to Executrix individually.”
In his Third Application, Paul attempted to resurrect
each of these claims. He pleaded that Nancy and

Charles continue to require a release in violation of
Texas Estates Code section 405.002(b) before
distributing property. Paul has no possibility of
prevailing on the claim because he previously nonsuited
it with prejudice and cannot relitigate it. The nonsuit
with prejudice constitutes a judgment on the merits on
this issue. See Nunu I, 542 S.W.3d at 81 (citing Epps v.
Fowler, 351 S.W.3d 862, 868 (Tex. 2011) ). The
judgment in Nunu I therefore established that Nancy
did not violate Texas Estates Code section 405.002(b)
by refusing to sign and perform the Partition
Agreement unless Paul released his claims against her
and Charles. Moreover, Paul could not prevail on a
claim that Nancy or Charles refuses to distribute estate
assets without a release for the additional, independent
reason that Nancy and Charles can neither withhold
nor distribute estate property, with or without a
release, because the estate is administered by a thirdparty dependent administrator.
Paul also again pleaded in his Third Application
for specific performance of the unsigned Partition
Agreement or alternatively, for breach-of-contract
damages for failure to perform it. This claim, too, is
foreclosed by his nonsuit-with-prejudice of his claim to
enforce the Partition Agreement. By nonsuiting the
claim with prejudice, Paul surrendered the right to
maintain a claim for enforcement of the Partition
Agreement,
and
he
cannot
relitigate
that
determination.
The same is true of his resurrected claim that
Nancy wrongfully retained assets belonging to the
estate or that were held for the benefit of its
beneficiaries. Paul made the same claims in his Second
Application, and because he nonsuited the claims with
prejudice on the third day of trial, the judgment is

C
ur
ry

&

Ta
yl
or

11a

Printed with FinePrint - purchase at www.fineprint.com

7

14a

treated as a ruling in Nancy’s favor on that claim. This
is not changed by Paul’s allegation that he later
discovered a memorandum by Raymond *469 Risk
which purportedly was dictated by Paul’s and Nancy’s
mother and which may characterize certain
survivorship accounts held by Nancy and her mother as
convenience accounts. Even if Paul was unaware of the
memo earlier, he nevertheless alleged in his Second
Application
that
Nancy
“wrongfully
retained
survivorship monies she knew belonged to the estate.”
Paul then voluntarily surrendered that claim and “any
and all claims that could have been brought” in that
proceeding, with those few exceptions we have
described. The memo might have been useful when
litigating the claims asserted in Paul’s Second
Application in Nunu I, but it is not a permissible basis
for a new claim that Nancy wrongfully retained
survivorship monies or other estate property.
For each of these reasons, Nancy and Charles
established that (a) Paul is attempting to relitigate
issues that were finally determined by the 2016
judgment disposing of the claims against Nancy, and (b)
there is no reasonable possibility that Paul could
prevail on the claims, because Paul previously caused
the claims to be dismissed with prejudice.
In arguing to the contrary, Paul first asserts that
judicial notice is not evidence. He cites no authority so
holding. Moreover, this contention is contrary to the
provision in the Texas Rules of Evidence that a jury in
a civil case must take a judicially noticed fact as
conclusively established, and a jury in a criminal case
may do so. See Tex. R. Evid. 201(f). In this civil case,
Paul’s Second and Third Applications and the 2016 final
judgment were judicially noticed, and their contents
are beyond dispute. For the reasons we have explained,

this evidence supports the trial court’s finding that Paul
is a vexatious litigant.
Paul next contends that Nancy and Charles
asked the trial court to take judicial notice of its file and
that Paul had no opportunity “to cross-examine, refute,
supplement, or explain any pleadings” the trial court
reviewed. For several reasons, this complaint is waived.
First, it was Paul himself, not his siblings, who first
asked the trial court “to take judicial notice of the
entire Courts' file.” Paul never withdrew that request,
and he did not object when his siblings later made the
same request. He therefore cannot be heard to
complain that the trial court did as he asked. Cf. Swain
v. Hutson, No. 2-09-038-CV, 2009 WL 3246750, at *6
(Tex. App.—Fort Worth Oct. 8, 2009, pet. denied)
(mem. op.) (“A party cannot request specific action from
a trial court and then later complain on appeal when the
court has ruled as requested.” (citing In re Dep't of
Family & Protective Servs., 273 S.W.3d 637, 646 (Tex.
2009) (orig. proceeding) ) ). As for Paul’s assertion that
he had no opportunity to address the propriety of the
trial court’s judicial notice, the Texas Rules of Evidence
provide that, “[o]n timely request, a party is entitled to
be heard on the propriety of taking judicial notice and
the nature of the fact to be noticed.” Tex. R. Evid.
201(e). After asking the trial court to take judicial
notice of its entire file, Paul did not ask to be heard on
the propriety of granting his request and did not argue
at the hearing on the vexatious-litigant motion that it
would be improper for the trial court to take notice of
his Second and Third Applications or the 2016 final
judgment. Further, he affirmatively stated at the
hearing on the vexatious-litigant motion that he had
“[n]o objection at all” to the trial court’s judicial notice.

C
ur
ry

&

Ta
yl
or

13a

Printed with FinePrint - purchase at www.fineprint.com

8

16a

Finally, Paul points to the allegation in his Third
Application that “[t]his lawsuit is wholly based on the
actions of Respondents that occurred after the entry of
the Final Judgment of April 14, 2016.” That allegation,
however, is conclusively negated *470 simply by
comparing his Second and Third Applications and the
2016 final judgment. For example, an allegation that
Nancy did not perform the Partition Agreement after
the 2016 final judgment is no different from an
allegation that Nancy did not perform the agreement
before the judgment: he is complaining of the same
conduct—failure to perform the Partition Agreement—
but because Paul nonsuited the claim with prejudice, it
already has been finally determined that Nancy is not
required to perform the Partition Agreement. The
same is true with the other claims we have discussed.
These are not new claims; they are attempts to
relitigate matters that were closed by Paul’s own
design.
We overrule Paul’s first and second issues.

To the extent that Paul asserts that the trial
court incorrectly applied the law of the case in declaring
him a vexatious litigant, our resolution of Paul’s first
two issues disposes of that argument. The trial court’s
vexatious-litigant finding is supported by Paul’s
repeated attempts to relitigate matters that he
voluntarily dismissed with prejudice. As we explained
in Nunu I, those matters could not be reversed on
appeal or reopened on remand. Nunu I, 542 S.W.3d at
82, 84. In declaring Paul a vexatious litigant for
attempting to relitigate the same matters that have
been finally decided against him in litigation against
one of the same defendants, the trial court correctly
applied the law of the case.
We overrule Paul’s third issue.

V. Law of the Case

C
ur
ry

&

Ta
yl
or

15a

In a third issue, Paul contends that at a hearing
on his Third Motion to Compel Distribution, the trial
court incorrectly applied the law of the case. The
hearing occurred while this appeal has been pending
and addresses a matter that we have no jurisdiction to
consider in this interlocutory appeal of the trial court’s
prefiling order. We therefore do not consider the
transcript of the hearing on Paul’s Third Motion to
Compel Distribution or any argument that the trial
court misapplied the law of the case in connection with
that matter. We dismiss that part of Paul’s appeal for
want of jurisdiction.
Printed with FinePrint - purchase at www.fineprint.com

VI. Conclusion
Finding no error in the portion of the judgment
finding Paul E. Nunu to be a vexatious litigant and
requiring him to obtain permission of the appropriate
local administrative judge before instituting new
litigation against Nancy Nunu Risk or Charles Nunu,
we affirm that portion of the trial court’s judgment. We
dismiss for want of jurisdiction Paul’s attempted appeal
of any other issue, including his attempted appeal of the
portion of the trial court’s order requiring him to post
security to maintain the current action.
Footnotes
1We identify the cases by the date the proceeding was
filed rather than the date the opinion issued.

9

17a

18a

2See Act of May 29, 1987, 70th Leg., R.S., ch. 565, § 1,
1987 Tex. Gen. Laws 2246, 2246 (amended 2011 and
2013) (current version at Tex. Est. Code § 405.001(b) ).
3We stated in Diaz v. A.M. Stringfellow Unit, No. 1415-00253-CV, 2015 WL 1870251, at *1 (Tex. App.—
Houston [14th Dist.] Apr. 23, 2015, no pet.) (per curiam)
(mem. op.), “There is no statutory provision authorizing
an appeal of an interlocutory order declaring a person a
vexatious litigant, or of an order prohibiting a person
from filing new litigation without permission of the
local administrative judge.” (emphasis added). This
statement was mere obiter dictum, for only a security
order was at issue in Diaz, not a prefiling order under
section 11.101. We did not purport to construe section
11.101 in Diaz.
4See Tex. Civ. Prac. & Rem. Code § 11.101(e) (a
prefiling order “by a district or statutory county court
applies to each court in the state”).

EXHIBIT 2
NO. 416,781
IN RE: ESTATE OF

§
ROSE FARHA
NUNU,

Ta
yl
or

&

C
ur
ry
Printed with FinePrint - purchase at www.fineprint.com

§

DECEASED

IN THE PROBATE
COURT

§
§

NUMBER ONE (1) OF

§
HARRIS COUNTY,
TEXAS

ORDER DECLARING PAUL E. NUNU A
VEXATIOUS LITIGANT

On this day, came on to be heard the Motion to
Declare Paul E. Nunu a Vexatious Litigant (hereinafter
referred to as the “Motion”) filed by Movants NANCY
NUNU RISK and CHARLES L. NUNU (hereinafter
referred to collectively as the “Movants”). After
consideration of the Motion, the Response, if any, and
the arguments of counsel, if any, the Court is of the
opinion and finds that Movants’ Motion should be
GRANTED in all respects. The Court finds and
declares that Paul E. Nunu is a vexatious litigation and,
as such, it is therefore:
ORDERED, ADJUDGED, and DECREED that
Paul E. Nunu shall furnish security for the benefit of
the Movants, by posting a surety bond with the court
clerk in the amount of $ 15,000.00, buy February 16,
2018 at 5.00 p.m. The security is to assure payment to

10

19a

20a
Respectfully submitted,
MACINTYRE MCCULLOCH STANFIELD
& YOUNG. LLP

C
ur
ry
___________________
JUDGE
PRESIDING

Printed with FinePrint - purchase at www.fineprint.com

By: ______________________________
W. CAMERON McCULLOCH
State Bar No. 00788930
CHRISTOPHER C. BURT
State Bar No, 24068339
2900 Weslayan, Suite 150
Houston, Texas 77027
(713) 572-2900
(713) 572-2902 (FAX)
Cameron.mcculloch@mmlawtexas.com
Christopher.Burt@mmlawtexas.com

Ta
yl
or

&

the Movants for reasonable expenses, including the
Movants’ court costs and attorney’s fees. It is further,
ORDERED, ADJUDGED, and DECREED that
if Paul E. Nunu does not furnish security within the
time limit set by this order, the Court will dismiss all
claims filed by Paul E. Nunu in the above numbered
and styled cause with prejudice against Paul E. Nunu.
It is further,
ORDERED, ADJUDGED, and DECREED that
all claims filed by Paul E. Nunu in the above numbered
and styled cause are hereby abated until Paul E. Nunu
complies with this Order or until the matter is
dismissed by further order of this Court. It is further,
ORDERED, ADJUDGED, and DECREED that
Paul E. Nunu shall not file, as a pro se party, any new
litigation in a court in Texas against Movants, in any
capacity, and/or their respective agents, directors,
officers, employees, heirs, assigns, attorneys, and/or
representatives, without first obtaining permission
from the appropriate local administrative judge as
required by Texas Civil Practice and Remedies Code
Section 11.102(a). It is further,
ORDERED, ADJUDGED, and DECREED
that, as required by the Texas Civil Practice and
Remedies Code Section 11.104, the court clerk shall
provide a copy of this Order to the Office of Court
Administration of the Texas Judicial System.
Signed this 30th day of January, 2018.

ATTORNEYS FOR MOVANTS

11

22a

416,781

Nunu Against Nancy Nunu Risk, signed October 19,
2018; and (2) the Order denying Paul E. Nunu’s Motion
for New Trial to Vacate Judgment for Attorney’s Fees,
dated January 23, 2019.
After reviewing the Notice of Appeal, the
pleadings, the Clerk’s record, and the applicable
authorities, the Administrative Judge DENIES Paul
E. Nunu permission to proceed with this litigation.
The Court further ORDERS the Harris County
Clerk to forward a copy of this Order to the parties in
the case or their attorneys of record.
Signed this __________ day of ____________,
2019

§
§

ROSE FARHA
NUNU,

IN THE PROBATE
COURT

§
§

NUMBER TWO (2)

Ta
yl
or

IN RE: ESTATE OF

21a

§
DECEASED

HARRIS COUNTY,
TEXAS

&

ADMINISTRATIVE ORDER

C
ur
ry

On January 30, 2018, Harris County Probate
Court No. 1 issued an order declaring Paul E. Nunu to
be a vexatious litigant. That order was appealed and on
January 15, 2019, the Fourteenth Court of Appeals
issued an opinion affirming the order. The Harris
County Clerk’s Office confirms that a $15,000.00 bond
has been posted, as required in the January 30, 2018
order.
As a vexatious litigant, Mr. Nunu must obtain
permission from the appropriate administrative judge
before filing new litigation, including new appeals,
pursuant to Texas Civil Practice and Remedies Code
Chapter 11. Mr. Nunu now seeks to file a notice of
appeal setting forth his intent to appeal: (1) the Order
Awarding Nancy Nunu Risk Necessary Expenses and
Disbursements, Including Reasonable Attorney’s Fees,
as a Result of the Removal Proceedings filed by Paul E.
Printed with FinePrint - purchase at www.fineprint.com

_____________________________
JASON COX
Administrative Judge, Probate
Courts
Harris County, Texas

12

23a

24a

Chief Justice
Kem Thompson Frost

W. Cameron McCulloch
MacIntyre McCulloch Stanfiield & Young, LLP
2900 Weslayan, Suite 150
Houston, TX 77027
* DELIVERED VIA E-MAIL *

Justices
Tracy Christopher
Ken Wise
Kevin Jewell
Frances Bourliot
Jerry Zimmerer
Charles A. Spain
Meagan Hassan
Margaret “Meg” Poissant

Ta
yl
or

Paul E Nunu
3256 Burke Rd.
Pasadena, TX 77504
*DELIVERED VIA E-MAIL *
RE:

C
ur
ry

&

Clerk
Christopher A. Prine
Phone 713-274-2800

Fourteenth Court of Appeals
301 Fannin, Suite 245 Houston, Texas 77002
Tuesday, February 19, 2019
Howard M. Reiner
3410 Mercer St.
Houston, TX 77027
*DELIVERED VIA E-MAIL*
Printed with FinePrint - purchase at www.fineprint.com

Court of Appeals Number: 14-18-00109-CV
Trial Court Case Number: 416781

Style: Paul E. Nunu
v.
Nancy Nunu Risk and Charles L. Nunu
Please be advised that on this date the Court
DENIED APPELLANT’S motion for rehearing in
the above cause.
Panel Consists Of Justices Christopher,
Jewell and Hassan

Sincerely,
lsl Christopher A. Prine,
Clerk

13

25a
RE: Case No. 19-0284
COA #: 14-18-00109-CV

26a
DATE: 7/12/2019
TC#: 416781

RE: Case No. 19-0284
COA #: 14-18-00109-CV

DATE: 8/30/2019
TC#: 416781

STYLE: NUNU v. NUNU

Today the Supreme Court of Texas denied the
petition for review in the above-referenced case.
Motion to consolidate appeals is denied. (Justice Busby
not sitting)

Today the Supreme Court of Texas denied the
motion for rehearing of the above-referenced petition
for review. (Justice Busby not participating)

C
ur
ry

&

MR. DONALD T. CHEATHAM
ATTORNEY AT LAW
7500 SAN FELIPE ROAD,
SUITE 600
HOUSTON, TX 77063
* DELIVERED VIA E-MAIL *

Ta
yl
or

STYLE: NUNU v. NUNU

Printed with FinePrint - purchase at www.fineprint.com

MR. DONALD T. CHEATHAM
ATTORNEY AT LAW
7500 SAN FELIPE ROAD,
SUITE 600
HOUSTON, TX 77063
* DELIVERED VIA E-MAIL *

14

28a

Article
VI.
PRIOR
DEBTS,
NATIONAL
SUPREMACY,
OATHS
OF
OFFICE.
CONSTITUTION
OF
UNITED
STATESCONSTITUTION
Current through 2010
Article
VI.
PRIOR
DEBTS,
NATIONAL
SUPREMACY, OATHS OF OFFICE All Debts
contracted and Engagements entered into, before the
Adoption of this Constitution, shall be as valid against
the United States under this Constitution, as under the
Confederation. This Constitution, and the Laws of the
United States which shall be made in Pursuance
thereof; and all Treaties made, or which shall be made,
under the Authority of the United States, shall be the
supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the
Constitution or Laws of any state to the Contrary
notwithstanding. The Senators and Representatives
before mentioned, and the Members of the several
State Legislatures, and all executive and judicial
Officers, both of the United States and of the several
States, shall be bound by Oath or Affirmation, to
support this Constitution; but no religious Test shall
ever be required as a Qualification to any Office or
public Trust under the United States.

Amendment I. Religion and Expression.
CONSTITUTION OF UNITED STATES
CONSTITUTION
AMENDMENTS
Current through 2010
Amendment I. Religion and Expression Congress shall
make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the
Government for a redress of grievances.

C
ur
ry

&

Ta
yl
or

27a

Printed with FinePrint - purchase at www.fineprint.com

15

30a

Amendment XIV. Rights Guaranteed: Privileges and
Immunities of Citizenship, Due Process, and Equal
Protection.
CONSTITUTION
OF
UNITED
STATES
CONSTITUTION AMENDMENTS
Current through 2010
Amendment XIV. Rights Guaranteed: Privileges and
Immunities of Citizenship, Due Process, and Equal
Protection
SECTION. 1. All persons born or naturalized in the
United States and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the
laws.
SECTION. 2. Representatives shall be apportioned
among the several States according to their respective
numbers, counting the whole number of persons in each
State, excluding Indians not taxed. But when the right
to vote at any election for the choice of electors for
President and Vice President of the United States,
Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State.

SECTION. 3. No person shall be a Senator or
Representative in Congress, or elector of President and
Vice President, or hold any office, civil or military,
under the United States, or under any State, who,
having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a
member of any State legislature, or as an executive or
judicial officer of any State, to support the Constitution
of the United States, shall have engaged in insurrection
or rebellion against the same, or given aid or comfort to
the enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
SECTION. 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall
not be questioned. But neither the United States nor
any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or emancipation
of any slave; but all such debts, obligations and claims
shall beheld illegal and void.
SECTION. 5. The Congress shall have power to
enforce, by appropriate legislation, the provisions of
this article. Cite as US. Const. art. AMENDMENTS §
Amendment XIV

C
ur
ry

&

Ta
yl
or

29a

Printed with FinePrint - purchase at www.fineprint.com

16

32a

Effective: September 1, 2013
V.T.C.A., Civil Practice & Remedies Code § 11.054
§ 11.054. Criteria for Finding Plaintiff a Vexatious
Litigant
Currentness
A court may find a plaintiff a vexatious litigant if the
defendant shows that there is not a reasonable
probability that the plaintiff will prevail in the litigation
against the defendant and that:
(1) the plaintiff, in the seven-year period immediately
preceding the date the defendant makes the motion
under Section 11.051, has commenced, prosecuted, or
maintained at least five litigations as a pro se litigant
other than in a small claims court that have been:
(A) finally determined adversely to the plaintiff;
(B) permitted to remain pending at least two years
without having been brought to trial or hearing; or
(C) determined by a trial or appellate court to be
frivolous or groundless under state or federal laws or
rules of procedure;
(2) after a litigation has been finally determined against
the plaintiff, the plaintiff repeatedly relitigates or
attempts to relitigate, pro se, either:
(A) the validity of the determination against the same
defendant as to whom the litigation was finally
determined; or
(B) the cause of action, claim, controversy, or any of the
issues of fact or law determined or concluded by the
final determination against the same defendant as to
whom the litigation was finally determined; or
(3) the plaintiff has previously been declared to be a
vexatious litigant by a state or federal court in an
action or proceeding based on the same or substantially
similar facts, transition, or occurrence.

V.T.C.A., Civil Practice & Remedies Code § 11.101
§ 11.101. Prefiling Order; Contempt
Currentness
(a) A court may, on its own motion or the motion of any
party, enter an order prohibiting a person from filing,
pro se, a new litigation in a court to which the order
applies under this section without permission of the
appropriate local administrative judge described by
Section 11.102(a) to file the litigation if the court finds,
after notice and hearing as provided by Subchapter B,1
that the person is a vexatious litigant.
(b) A person who disobeys an order under Subsection
(a) is subject to contempt of court.
(c) A litigant may appeal from a prefiling order entered
under Subsection (a) designating the person a vexatious
litigant.
(d) A prefiling order entered under Subsection (a) by a
justice or constitutional county court applies only to the
court that entered the order.
(e) A prefiling order entered under Subsection (a) by a
district or statutory county court applies to each court
in this state.

C
ur
ry

&

Ta
yl
or

31a

Printed with FinePrint - purchase at www.fineprint.com

Footnotes
1V.T.C.A., Civil Practice & Remedies Code § 11.051 et
seq.

17

34a

V.T.C.A., Civil Practice & Remedies Code § 11.102
§ 11.102. Permission by Local Administrative Judge
Currentness
(a) A vexatious litigant subject to a prefiling order
under Section 11.101 is prohibited from filing, pro se,
new litigation in a court to which the order applies
without seeking the permission of:
(1) the local administrative judge of the type of court in
which the vexatious litigant intends to file, except as
provided by Subdivision (2); or
(2) the local administrative district judge of the county
in which the vexatious litigant intends to file if the
litigant intends to file in a justice or constitutional
county court.
(b) A vexatious litigant subject to a prefiling order
under Section 11.101 who files a request seeking
permission to file a litigation shall provide a copy of the
request to all defendants named in the proposed
litigation.
(c) The appropriate local administrative judge
described by Subsection (a) may make a determination
on the request with or without a hearing. If the judge
determines that a hearing is necessary, the judge may
require that the vexatious litigant filing a request
under Subsection (b) provide notice of the hearing to all
defendants named in the proposed litigation.
(d) The appropriate local administrative judge
described by Subsection (a) may grant permission to a
vexatious litigant subject to a prefiling order under
Section 11.101 to file a litigation only if it appears to the
judge that the litigation:
(1) has merit; and
(2) has not been filed for the purposes of harassment or
delay.

(e) The appropriate local administrative judge
described by Subsection (a) may condition permission
on the furnishing of security for the benefit of the
defendant as provided in Subchapter B.1
(f) A decision of the appropriate local administrative
judge described by Subsection (a) denying a litigant
permission to file a litigation under Subsection (d), or
conditioning permission to file a litigation on the
furnishing of security under Subsection (e), is not
grounds for appeal, except that the litigant may apply
for a writ of mandamus with the court of appeals not
later than the 30th day after the date of the decision.
The denial of a writ of mandamus by the court of
appeals is not grounds for appeal to the supreme court
or court of criminal appeals.

C
ur
ry

&

Ta
yl
or

33a

Printed with FinePrint - purchase at www.fineprint.com

Footnotes
1V.T.C.A., Civil Practice & Remedies Code § 11.051 et
seq.

